Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit
Report - A-06-96-62200
Office
of Audit
Reading Level for Spanish-Speaking
Clients Receiving Social Security Administration Spanish Language
Notices - A-06-96-62200 - 1/30/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
Method
for Determining the Reading Level for Spanish-speaking Individuals
Has Not Been Developed
Reading
Level Established for English Language Material is Appropriate
for Spanish-speaking Individuals
Respondents
Provided Ideas for Continued Notice Improvements
Literal
Translation of English Notices Not Recommended
Two
Methods for Translating Written Material
Problems
Exist in Current Translation Software
RECOMMENDATIONS
APPENDICES
A: General Accounting Office
Testimony and Department of Health and Human Services/Office
of Inspector General Studies on SSA Notices
B: Court Decisions Affecting
SSA Notices
C: Agencies, Organizations,
and Individuals Contacted
E: Major Contributors to the
Report
EXECUTIVE SUMMARY
PURPOSE
To provide the Social Security Administration (SSA)
with information concerning the appropriate reading level for Spanish-speaking
clients receiving SSA Spanish language notices.
BACKGROUND
This inspection resulted from discussions with SSA
officials on two Department of Health and Human Services/Office of
Inspector General (HHS/OIG) reports: 1) "Clarity of SSA
Notices," and 2) "Clarity of Supplemental Security Income
Notices." SSA found the reports helpful in evaluating the effectiveness
of its current and proposed notice revisions, and requested additional
assistance in providing information on the appropriate reading level
for Spanish-speaking clients.
SSA relies on over 250 million notices and forms sent
to the public each year to: 1) communicate decisions about eligibility
for benefits, 2) inform beneficiaries of their rights and responsibilities,
and 3) describe avenues of appeal. Some Retirement, Survivors,
and Disability Insurance (RSDI) notices are available in Spanish.
All automated Supplemental Security Income (SSI) notices are available
in Spanish.
SSA is committed to improving the quality of its written
notices. In February 1985, SSA published "Social Security
Administration Notice Standards" (Standards) to improve the
readability of notices and provide criteria to produce uniform and
clear notices. The Standards have been revised twice. SSA`s customer
service pledge, included in the Standards, states, "We will
clearly explain our decisions so you can understand why and how we
made them and what to do if you disagree."
We conducted an extensive literature search and conducted
personal and telephone interviews with 46 individuals at 39 agencies
and organizations to:
1. inquire if they have developed methods
for determining a reading level for their Spanish-speaking readers,
2. obtain
their views on the most effective ways of helping Spanish-speaking
individuals to understand written materials, and
3. determine
if they have developed or are using software programs to assess
the readability of material written in Spanish.
FINDINGS
Method for determining the reading level for
Spanish-speaking individuals has not been developed.
Respondents stated they: 1) have not developed,
or are not aware of, a method for determining the most appropriate
reading level for Spanish-speaking individuals; and 2) have
not developed, nor are they using, a computer software program to
assess the readability of material written in Spanish
Reading level established for English language
material is appropriate for Spanish-speaking individuals.
Eleven of 13 respondents referencing SSA`s
reading level for English notices stated that, if notices are accurately
translated, the same reading level is appropriate for Spanishnotices.
Respondents believed that, if English notices meet SSA`s Standards,
translating them into Spanish should be a fairly simple process.
Respondents provided ideas for continued notice
improvements.
Respondents provided ideas for making Spanish notices
more understandable for Spanish-speaking clients, including: 1) using
employees who are as fluent in the Spanish language as they are in
the English language to do the translations, 2) using a glossary
to assure consistency, 3) translating material accurately, and
4) conducting focus groups on the readability of notices
Literal translation of English notices is not
recommended.
A literal translation may not, in fact, get the desired
message across to those reading the material in Spanish. Respondents
provided reasons why English to Spanish translation cannot be done
verbatim, including: 1) no language can be translated verbatim
because words and sentence structures do not correlate; and 2) the
Spanish language generally uses more words to make a statement than
English.
Two methods for translating written material.
Respondents provided information on two possible methods
for translating notices from English to Spanish, including: 1) having
employees, whose knowledge of the Spanish language is as strong as
or stronger than their knowledge of the English language, serve as
translators; and 2) contracting out the translation of notices
to a good professional translator.
Problems exist in current translation software.
Respondents stated that no software program produces
a perfect translation. All programs require knowledge of the language
being translated and some form of human intervention, such as building
dictionaries and redoing documents.
RECOMMENDATIONS
SSA`s efforts to improve the overall quality of
notices will enable SSA to provide understandable Spanish notices.
SSA`s reading level for material written in English appears appropriate
for Spanish-language notices. Further, if SSA is to provide notices
in languages other than English or Spanish (e.g., in Russian, Chinese,
Vietnamese, etc.), SSA should be able to provide accurately translated
notices by duplicating its efforts in translating English notices
into Spanish. SSA should continue improving the readability of Spanish
language notices by:
conducting focus groups to obtain participant
information on the readability of notices;
adhering to SSA`s Standards for preparing
both English and Spanish notices;
enhancing the English-Spanish Glossary
of Social Security Administration Terminology (replace poorly
understood words or phrases), and, further to continue promoting
consistency of terminology, providing the Glossary to all SSA
offices;
ensuring SSA staff doing the translations
have adequate skills and tools needed to do the translations;
considering using the Spanish version of "Grammatik" when
it becomes available-- SSA should determine that this software
meets its needs for producing accurate Spanish notices (SSA currently
uses the English version of this software to write English material
at the desired grade level); and
identifying staff capable of and interested
in translating.
AGENCY COMMENTS
In its written comments to the draft report, SSA agreed
with the findings and the thrust of our recommendations.
OIG RESPONSE
We appreciate SSA`s comments to this report. We
would also like to acknowledge the assistance provided by the Notice
Policy Staff during the course of this study.
Back to top
INTRODUCTION
PURPOSE
To provide the SSA with information concerning the
appropriate reading level for Spanish-speaking clients receiving
SSA Spanish language notices.
BACKGROUND
This inspection resulted from discussions with SSA
officials on two prior HHS/OIG reports: 1) "Clarity of
SSA Notices," OEI-07-90-02410; and 2) "Clarity of
Supplemental Security Income Notices," OEI-07-90-02460. SSA
found the reports helpful in evaluating the effectiveness of its
current and proposed notice revisions, and requested additional OIG
assistance in providing information on the appropriate reading level
for Spanish-speaking clients.
SSA relies on over 250 million notices and forms sent
to the public each year to: 1) communicate decisions about individuals` eligibility
for benefits, 2) inform beneficiaries of their rights and responsibilities,
and 3) describe avenues of appeal. Some RSDI notices are available
in Spanish. All automated SSI notices are available in Spanish. Some
high volume public forms, such as the Application for a Social Security
Card, Form SS-5, are also available in Spanish.
Because of the high volume of notices mailed to SSA
clients, almost all of the processes for generating and mailing materials
are automated. While most of the RSDI notices are generated by 1
of about 15 different computer systems, those for the SSI program
are generated by a single computer system. Information included in
the notices is from a compilation of computer-selected paragraphs
in the different systems.
Spanish-speaking Population in the United States
Continues to Grow
Over the past decade, more than a third of the United
States` population growth was due to immigration. Recent immigrants
came predominantly from Asian- and Spanish-speaking countries. Further,
data from the 1990 U.S. Census show: 1) Spanish-speakers
comprise a rapidly growing segment of the population in the United
States; 2) many of the immigrants are recent arrivals; 3) excluding
Puerto Rico, 13.8 percent of the population age 5 years
and older speak a language other than English in the home--with 53 percent
of these speaking Spanish; and 4) nearly half of the Spanish-speakers
reported they do not speak English very well.
The Spanish-speaking elderly population is growing
faster than any other segment of the population. It is estimated
that this population, which accounted for 3.6 percent of the
total elderly population in 1990, will increase to 6.3 percent
in 2010 and 11.7 percent in 2050.
Pursuant to a 1988 congressional request, the
U.S. Department of Education`s National Center for Education
Statistics and Division of Adult Education and Literacy conducted
a national household survey of the literacy skills of adults in the
United States. The report, issued in September 1993, states
that of all the racial/ethnic groups, Hispanic adults reported the
fewest years of schooling in this country--on average, just over
10 years, compared to 11.6 years for African Americans
and 11.7 years for Native Americans/ Alaskans.
SSA`s Notice Standards
SSA is committed to improving the quality of its written
notices, and has taken a number of steps designed to improve the
readability of notices and to provide guidelines for producing uniform
and clear notices. In February 1985, SSA published the first
edition of its Standards. The Standards were revised in July 1989
and required that notices: 1) be written at a sixth-grade reading
level, 2) contain no jargon, 3) have an average sentence
length of 15-20 words, and 4) have paragraphs no longer
than 7 lines. The Standards, revised again in August 1995:
1) required that notices be written at a sixth- to eighth- grade
reading level, 2) further refined the elements of a clear notice,
3) included additional guidance on how to write notices, and
4) included standards for Spanish notices. SSA`s customer
service pledge, included in the August 1995 edition of the Standards,
states, "We will clearly explain our decisions so you can understand
why and how we made them and what to do if you disagree." SSA
states that 70 percent of the notices have been improved, and
estimates that, under current plans, it will take several years to
apply the Standards to all notices.
In early 1992, SSA developed a Tactical Plan called Access
6.1 Improve Access to SSA: Accelerate Notice Improvements.
The goals of this plan include: 1) improving public service,
public confidence, and access to SSA by improving the quality of
the notices; 2) assessing SSA`s methods of communicating
with the largest groups of its non-English speaking (NES) customers
in order to eliminate the need for repeated and/or lengthy contacts
with SSA; and 3) accelerating the pace of notice improvement
activities.
Studies Involving SSA Notices
A number of SSA studies have evaluated notices, including
the following:
 In 1987, Portfolio Associates, Incorporated,
conducted a study for SSA on revised SSA notices. Study participants
reported that, although the revised notices were written in simple,
straightforward, and understandable style, some passages were difficult
to understand and others contained jargon.
 A May 1992 SSA report, "SSA`s
Capability to Accommodate the Needs of the Non-English Speaking
Public," provided an overall picture of what SSA was doing
to meet the needs of NES individuals as well as what needs were
not being met. The report states, "There is a growing non-English
speaking public, both in terms of numbers and diversity of languages
spoken, that needs service from SSA." Further, this report
also presents the impact on bilingual employees of delivering these
services; for example, a large gap exists between the public`s
need for bilingual services and SSA`s capacity to meet that
need with its own resources.
 In 1992, Quarles, Schnurr, and Associates,
conducted a study for SSA on the clarity of two different RSDI
notices and one SSI notice and pamphlet. Focus group participants
were confused by one of the RSDI notices, but had little trouble
understanding the second one. The SSI participants had a difficult
time understanding how payment amounts were calculated in the SSI
notice, but had little trouble understanding the pamphlet.
 In 1994, SSA started conducting focus groups
in Spanish and English to: 1) determine the readability of
notices, and 2) gauge public reaction to implemented notice
changes. Participants provide information on the readability of
notices, difficulties encountered, and suggestions on how the notices
can be better written for them to understand.
General Accounting Office Testimony and HHS/OIG
Studies
Congressional testimony by the General Accounting Office
(GAO) and studies conducted by HHS/OIG identify problems similar
to those identified in SSA`s studies. GAO`s testimony indicates
that many SSA letters are difficult to understand. OIG studies indicate
that individuals, including NES individuals, continue having problems
understanding some of SSA`s mail. A listing of studies on SSA
notices is found at Appendix A.
The HHS/OIG report, "Employee Opinions of Social
Security Notices," OEI-05-92-00042, stated that the clarity
of SSA`s notices has been a concern of SSA, the courts, and the
Congress for many years. Further, judicial actions requiring SSA
to add specific language to its notices have compounded the problem
by adding wording that not only increases the overall length of notices,
but also affects their readability. A listing of court decisions
affecting SSA notices is found at Appendix B.
SSA Initiatives to Serve Spanish-speaking Individuals
SSA has undertaken several initiatives to provide quality
service to Spanish-speaking applicants and clients, including:
 Developing Program Operations Manual System
guidelines for determining when individuals should or should not
receive Spanish language notices and forms.
 Coding the Master Beneficiary Record and the
Supplemental Security Record with a Spanish language indicator.
The indicator identifies individuals who need or ask to receive
mail in Spanish.
 Identifying and obtaining information about
how other agencies and organizations provide services to NES individuals.
For example, SSA representatives visited Washington State`s
Department of Social and Health Services to obtain information
on providing services to NES individuals.
 Creating a task force to develop an Agencywide
policy on delivering appropriate service to NES individuals.
 Contacting agencies and organizations to obtain
their views on the most effective reading levels for Spanish-speaking
individuals.
METHODOLOGY
For this study, we conducted an extensive literature
search and conducted personal and telephone interviews with 46 individuals
at 39 agencies and organizations to:
1) inquire if they have developed methods for determining
a reading level for their Spanish-speaking readers;
2) obtain their views on the most effective ways
of helping Spanish-speaking individuals to understand written materials;
and
3) determine if they have developed or are using
computer software programs to assess the readability of material
written in Spanish.
We also shared one of SSA`s Spanish language letters
with four of our contacts for comments on the readability of the
letter.
The following table provides a summary of the number
of individuals contacted at the various agencies and organizations.
A more detailed listing of our contacts is found at Appendix C.
Type of
Entity Contacted
Number
Contacted
Number of
Individuals Contacted
Federal Agency
4
8
State Agency
6
9
Education (Bilingual
and Elementary)
2
4
University
6
6
Research Group
2
2
School Book Publisher
1
1
Advocacy Group
1
1
Magazine
3
3
Newspaper
6
6
Community Based
Organization
3
3
Translation Service
2
2
Software Company
3
3
Total
39
48
Our evaluation work for this study was conducted during
the period from June 1995 through March 1996.
This inspection was conducted in accordance with
the Quality Standards for Inspections issued by the President`s
Council on Integrity and Efficiency.
Back to top
FINDINGS
Method
for determining the reading level for Spanish-speaking individuals
has not been developed
Respondents stated they: 1) have not developed,
or are not aware of, a method for determining the most appropriate
reading level for Spanish-speaking individuals; and 2) have
not developed, nor are they using, a computer software program to
assess the readability of material written in Spanish. One of the
software companies contacted is developing the Spanish version of "Grammatik" that
will allow users to write Spanish material at a desired grade level.
SSA currently uses the English version of the software to write English
material at the desired grade level.
Reading
level established for English language material is appropriate
for Spanish-speaking individuals
Eleven of 13 respondents referencing SSA`s
reading level for English notices stated that, if notices are accurately
translated, the same reading level is appropriate for Spanish notices.
Four respondents (magazine editor, Sociology professor, researcher,
and State agency employee) reviewed one of SSA`s Spanish letters, "Administración
de Seguro Social, Seguridad de Ingreso Suplementario--Petición de
Información (PE)," ("Social Security Administration, Request
for Information [PE]"). These respondents stated the letter
should be understood by most readers. They suggested changing only
a few words and identified some errors in capitalization and use
of accents.
Respondents believed that, if English notices meet
SSA`s Standards, translating them into Spanish should be a fairly
simple process. One respondent stated that at her agency, as a general
rule, the reading level, style, etc., are dictated by the English
version, and the translators try to maintain the same reading level
as the English document.
Respondents
provided ideas for continued notice improvements
Respondents provided ideas for making SSA`s Spanish
notices more understandable for Spanish-speaking clients. We found
that SSA is currently addressing the respondents` ideas, which
include:
Using employees who are as fluent in the Spanish
language as they are in the English language to do the translations.
Using a glossary to assure consistency.
Using "Spanish" words that will
be understood by all readers, i.e., not using colloquialisms.
Translating materials accurately.
Conducting focus groups on the readability
of notices.
Using simple English on notices that will
make translation into Spanish much easier and result in clearer
notices.
Including the English word and/or phrase in
parentheses when using technical and medical terminology. This
will help readers of the notices to better understand the information
being conveyed.
Literal
translation of English notices is not recommended
A literal translation may not, in fact, get the desired
message across to those reading the material in Spanish. Respondents
provided the following comments on literal translations:
Make sure you get a translation and not a
transliteration that will not read well in Spanish and will be
hard to understand.
No language can be translated verbatim because
words and sentence structures do not correlate.
Quality is not translating word-for-word,
but, rather, in correct translations.
The Spanish language generally uses more words
to make a statement than English; Spanish notices are about 25 percent
longer than English notices.
We have had no luck with literal translations.
SSA`s Standards direct employees: 1) to translate
concepts, not words--the Spanish translation must have the same meaning
as the English; and 2) when translating notices into Spanish,
to consult the English/Spanish Glossary of Social Security Administration
Terminology to ensure that the terms used are consistent with
Agency-approved terminology.
Two
methods for translating written material
Respondents provided information on two possible methods
for translating notices from English to Spanish, including:
Having employees, whose knowledge of the Spanish
language is as strong as or stronger than their knowledge of the
English language, serve as translators. One respondent stated that
care must be exercised when doing translations. This respondent`s
agency has translated publications which include words and/or phrases
that are not understood by, or are offensive to, some clients in
different parts of the country. Respondents from newspapers and
magazines (e.g., Los Angeles East Magazine, Reader`s Digest,
and Editorial América which has over 14 magazines in Spanish,
including Cosmopolitan and Harper`s Bazaar en Español) stated
they use employees who write well in Spanish. It should be noted
that SSA already has staff translating notices from English to
Spanish.
Contracting out the translation of notices
to a good professional translator. However, a State agency respondent
stated that contracting out the work is somewhat expensive. Another
respondent stated that, if vendors are used to do the translations,
there may be a problem with their not knowing the program and,
therefore, not knowing the appropriate program wording/language
to be used.
Problems
exist in current translation software
Respondents (including two individuals from
companies who provide translation software) stated that no software
program produces a perfect translation. All programs require knowledge
of the language being translated and some form of human intervention,
such as building dictionaries and redoing documents. Overall, the
10 respondents who have used translation software have not
been impressed with the results. The main problem is the literal
translation of English words into Spanish, resulting in significant
post-translation editing. The City University of New York and the
Internal Revenue Service, after testing several software programs,
use a program provided by the Pan American Health Organization.
This program, too, requires human intervention.
Back to top
RECOMMENDATIONS
SSA`s efforts to improve the overall quality of
notices will enable SSA to provide understandable Spanish notices.
SSA`s reading level for material written in English appears appropriate
for Spanish-language notices. Further, if SSA is to provide notices
in languages other than English or Spanish (e.g., in Russian, Chinese,
Vietnamese, etc.), SSA should be able to provide accurately translated
notices by duplicating its efforts in translating English notices
into Spanish. SSA should continue improving the readability of Spanish
language notices by:
1. conducting focus groups to obtain participant
information on the readability of notices;
2. adhering to SSA`s Standards for preparing
both English and Spanish notices;
3. enhancing the English-Spanish Glossary of Social
Security Administration Terminology (replace poorly understood
words or phrases), and, further, to continue promoting consistency
of terminology, providing the Glossary to all SSA offices;
4. ensuring SSA staff doing the translations have
adequate skills and tools needed to do the translations;
5. considering using the Spanish version of "Grammatik" when
it becomes available--SSA should determine whether this software
meets its needs for producing accurate Spanish notices (SSA currently
uses the English version of this software to write English material
at the desired grade level); and
6. identifying staff capable of and interested in
translating.
AGENCY COMMENTS
In its written comments to the draft report, SSA agreed
with the findings and the thrust of our recommendations. SSA also
provided information regarding the activities they have taken and
are planning to take to address the recommendations. The full text
of its comments is provided in Appendix D.
OIG RESPONSE
We appreciate SSA`s comments to this report. We
would also like to acknowledge the assistance provided by the Notice
Policy Staff during the course of this study.
BIBLIOGRAPHY
Frey, William H., "Are Two Americas Emerging," Population
Today, Vol. 19, No. 10, October 1991, pp. 6-8.
Duleep, Harriet Orcutt, "Social Security and The
Emigration of Immigrants", Social Security Bulletin,
Vol. 57, No. 1, Spring 1994, pp. 37-52.
Quarles, Schnurr, and Associates, Overpayment Notice
and Due Process Notice: Notice of Award and SSI Rules That Help
You Work, Fairfax, Virginia, 1992.
U.S. General Accounting Office, SOCIAL SECURITY
ADMINISTRATION: Many Letters Difficult to Understand, Testimony,
GAO/T-HEHS-94-126, March 22, 1994.
U.S. General Accounting Office, SUPPLEMENTAL SECURITY
INCOME Recipient Population Has Changed as Caseloads Have Burgeoned,
Testimony, GAO/T-HEHS-95-120, March 27, 1995.
U.S. General Accounting Office, SUPPLEMENTAL SECURITY
INCOME: Growth and Changes in Recipient Population Call for Reexamining
Program, GAO/HEHS-95-137, July 1995.
U.S. General Accounting Office, SOCIAL SECURITY
DISABILITY: Management Action and Program Redesign Needed to Address
Long-Standing Problems, Testimony, GAO/T-HEHS-95-233, August
3, 1995.
U.S. General Accounting Office, SOCIAL SECURITY:
Quality of Service Generally Rated High by Clients Sampled,
GAO/HRD-86-8, January 1986.
U.S. General Accounting Office, SOCIAL SECURITY:
Clients Still Rate Quality of Service High, GAO/HRD-87-103BR,
July 1987.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction Survey,
OAI-02-87-00041, September 1987.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction Survey:
Fiscal Year 1988, OAI-02-88-00660, April 1988.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction Survey:
Fiscal Year 1989, OAI-12-89-00420, August 1989.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction: Telephone
Services, Management Advisory Report,
OEI-02-90-00441, February 16, 1990.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction Survey:
Fiscal Year 1990, OEI-02-90-00440, February 1990.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction: Service
Indicators 1992, OEI-02-91-01442, August 1992.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction: Fiscal
Year 1993, OEI-02-92-00760, June 1993.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction 1994:
Service Indicators, OEI-02-92-00981. June 1994.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction 1994:
Overview, OEI-02-92-00980, June 1994.
U. S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction: Fiscal
Year 1995, OEI-02-94-00370, March 1995.
U.S. Department of Health and Human Services, Office
of Inspector General, Clarity of Social Security Notices,
OEI-07-90-02410, May 1992.
U.S. Department of Health and Human Services, Office
of Inspector General, Clarity of Supplemental Security Income
Notices, OEI-07-90-02460, September 1992.
U.S. Department of Health and Human Services, Office
of Inspector General, Serving Non-English Speaking Clients,
OEI-02-89-00630, April 1990.
U.S. Department of Health and Human Services, Office
of Inspector General, Social Security Client Satisfaction 1994:
Client Subgroups, OEI-02-92-00982, June 1994.
U.S. Department of Health and Human Services, Office
of Inspector General, Employee Opinions of Social Security Notices,
OEI-05-92-00042, July 1994.
U.S. Department of Health and Human Services, Office
of Inspector General, SSA Spanish-speaking Client Satisfaction
in the United States, OEI-02-94-00310, March 1995.
U.S. Department of Health and Human Services, Office
of Inspector General, SSA Spanish-speaking Client Satisfaction
in Puerto Rico, OEI-02-94-00311, March 1995.
U. S. Department of Health and Human Services, Social
Security Administration, Office
of The Deputy Commissioner For Human Resources, Office
of Workforce Analysis, Social Security Administration`s Capability
to Accommodate the Needs of the Non-English Speaking Public,
Memorandum to all Deputy Commissioners, May 1992.
U. S. Department of Education, National Center for
Education Statistics, Adult Literacy in America, Washington
D.C., September 1993.
Back to top
APPENDICES
APPENDIX A
General Accounting Office Testimony and Department
of Health and Human Services/Office of Inspector General Studies
on Social Security Administration Notices
General Accounting Office (GAO) testimony and Department
of Health and Human Services/Office of Inspector General (HHS/OIG)
studies on Social Security Administration (SSA) notices include the
following:
GAO Testimony
In March 1994, GAO testimony before Congress
indicated that, while SSA has standards for written communications
to improve the readability of letters, other problems, not associated
with readability and design, exist to make many letters difficult
to understand. Among these problems are illogical order and a lack
of details to support decisions.
HHS/OIG Studies
Since 1987, OIG has conducted annual client
satisfaction surveys. From 1987 through 1991 the number of people
reporting SSA mail easy to understand declined from 76 percent
to 63 percent. From 1992 through 1995, the number of people
finding SSA mail hard to understand declined after increasing in
1993: 15 percent in 1992; 17 percent in 1993; 15 percent
in 1994; and 13 percent in 1995.
In 1994, OIG conducted a client satisfaction
survey of several specific subgroups including non-English speaking
(NES) clients. This survey was the result of SSA and OIG concerns
with the continuous low ratings by certain client subgroups. While
NES clients` overall satisfaction rating rose from 69 percent
in 1992 to 76 percent in 1994, the ratings for most SSA services
remained low. The NES clients were over three times more likely
than English-speaking clients to find SSA mail hard to understand
(47 and 13 percent, respectively). Further, 6 percent
of these individuals prefer their mail in a language other than
English, with 67 percent preferring Spanish.
In its 1995 report, "SSA Spanish-speaking
Client Satisfaction in the United States," OIG reported that,
when SSA provides services in Spanish, NES clients report a higher
level of satisfaction. For example, those receiving their last
service in Spanish reported a higher level of satisfaction than
those last served in English, as well as higher levels of understanding
and staff courtesy. Further, being helped in Spanish in person
and by telephone, and receiving mail in Spanish, was rated as very
important by at least 85 percent of the clients.
Forty-eight percent received mail which was
written partly in English and partly in Spanish, 15 percent
received mail written in Spanish, and 36 percent received
mail written in English.
Spanish-speaking clients reported using different
methods to interpret mail not written in Spanish. Most individuals
(57 percent) asked a friend or family member to translate
their mail and 12 percent took it to an SSA office. Only 28 percent
said they read the mail themselves. Fifty-eight percent said
their mail was easy to understand; 20 percent said it was
difficult to understand. The main reason given for the difficulty
was that it was written in English; other clients reported that
content and words were difficult to understand.
In its 1995 report, "SSA Spanish-speaking
Client Satisfaction in Puerto Rico," OIG stated that, while
still high, overall satisfaction dropped for Spanish clients who
received mail in English. Mail is the one service Puerto Rican
clients do not receive in their native language. Half of those
receiving some or all of their mail in English were less satisfied
overall than those whose mail was in Spanish only.
In the 1992 study, "Clarity of Social
Security Notices," OIG found that: 1) the Social Security
Administration Notice Standards (Standards) worked when used, but
were not uniformly applied to all automated notices; 2) several
notices do not comply with the Standards (i.e., have high reading
levels, use jargon, etc.); and 3) SSA has no ongoing process
for reviewing notices.
In its 1994 report, "Employee Opinions
of Social Security Notices," OIG found that: 1) 48 percent
of the surveyed employees identified at least one notice, letter,
or other SSA printed material they believed needed improvement;
and 2) 84 percent of the teleservice center employees
described a notice, letter, or other printed material they believed
needed improvement. These notices needed improvement because of
the public`s confusion due to: missing information, the use
of jargon, the reading level being too high, the material being
too long and rambling, the inclusion of unimportant information,
and/or the lack of an orderly presentation of facts.
APPENDIX B
Court Decisions Affecting Social Security Administration
Notices
Court decisions affecting the Social Security Administration
(SSA) notices include, but are not limited to, the following:
In Buffington v. Weinberger (1974)
the Secretary of the Department of Health and Human Services (HHS)
was ordered to revise the initial overpayment notice to provide
more information about recoupment procedures.
In Califano v. Elliott (1978) the court
said the recoupment notice must be plainly and clearly communicated,
and suggested the notice include the reason for overpayment, a
statement of the right to request reconsideration and waiver, and
notice of the right to a prerecoupment hearing.
In Cruz v. Califano (1978) Secretary
of HHS was ordered to provide appeal notices and forms in Spanish
in disability cases under title II and title XVI of the Social
Security Act.
In Soberal-Perez v. Heckler (1984)
the court found there was no due process violation when the Secretary
failed to provide notices and oral instructions in Spanish. However,
the court stated that SSA remained bound by the Cruz agreement.
APPENDIX C
AGENCIES AND ORGANIZATIONS
(Number of Individuals Contacted)
Federal Agencies
1. Internal Revenue Service (1)
2. Immigration and Naturalization Service
(2)
3. Social Security Administration (3)
4. U.S. Department of Agriculture (2)
State Agencies
1. State of Washington Department of
Social and Health Services (1)
2. Texas Department of Health, Bureau
of Nutrition Services (2)
3. Florida Department of Health and
Rehabilitative Services (1)
4. New York State Department of Social
Services (1)
5. New York Department of Health (1)
6. Connecticut Department of Children
and Families (3)
Education (Bilingual and Elementary)
1. Dallas Independent School District
(3)
2. Texas Education Agency, Division
for Bilingual Education (1)
Universities
1. University of Florida, Department
of Education (1)
2. Humboldt State University, Department
of Sociology (1)
3. University of New Mexico, Government
Information Department (1)
4. University of Texas, Nettie Lee Benson
Latin American Collection (1)
5. City University of New York (1)
6. Southern University (1)
Research Groups
1. Intercultural Development Research
Center (1)
2. Tomas Rivera Center (1)
School Book Publisher
1. Houghton Mifflin Company (1)
Advocacy Group
1. National Association for Hispanic
Elderly (1)
AGENCIES AND ORGANIZATIONS
(Number of Individuals Contacted)
Magazines
1. Los Angeles East Magazine (1)
2. Editorial América
(1)
3. Reader`s Digest
(1)
Newspapers
1. La Voz Católica (1)
2. Noticias en Español
(1)
3. 20 de Mayo (1)
4. El Extra (1)
5. El Sol de Tejas (1)
6. La Prensa News (1)
Community Based Organizations
1. Lancaster (PA) Center for Literacy
(1)
2. Texas Council of La Raza (1)
3. National Council of La Raza (1)
Translation Services
1. Globalink (1)
2. Pan American Health Organization
(1)
Software Companies
1. Globalink (1) (same
individual in "Translation
Services")
2. Pan American Health
Organization (1) (same individual in "Translation Services")
3. Novell (1)
APPENDIX E
MAJOR CONTRIBUTORS TO THIS REPORT
This evaluation report was prepared by the Office of
Audit in Dallas, under the direction of Scott Patterson, Director,
Evaluations and Technical Services. Project staff included:
George DeLuna
Evan Buckingham
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified